Inspection Report I-98-10 - Table of Contents
U.S. DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS DIVISION
Review of the Immigration and Naturalization Service's Automated
Biometric Identification System (IDENT)
Report Number I-98-10
March 1998
TABLE OF CONTENTS
Transmittal Memorandum
INTRODUCTION
INS HAS NOT YET MADE EFFECTIVE USE OF IDENT AS A TOOL FOR BORDER
ENFORCEMENT
Border Patrol Is Not Consistently Enrolling Aliens in IDENT
INS Is Not Placing Most Deported Aliens in the IDENT Lookout
Database
U.S. Attorneys Need to Develop Strategies For Using
IDENT
PROBLEMS IN IDENT DEPLOYMENT
Communications and Infrastructure Problems Have
Slowed IDENT Deployment
System Development Delays Have Inhibited Servicewide Use
of IDENT
INS Has Not Taken the Necessary Steps to Ensure IDENT
Data Integrity
NEXT STEPS: MUCH NEEDS TO BE DONE TO ENSURE IDENT'S
SUCCESS
RECOMMENDATIONS
Appendix I - Inspection Methodology
Appendix II - Percent of Apprehensions Enrolled in
IDENT (by Sector)
Appendix III - Immigration and Naturalization
Service Response to Draft Report
Appendix IV - Office of the Inspector General 's
Analysis of Management's Response
March 24, 1998
MEMORANDUM FOR  DORIS MEISSNER
COMMISSIONER
IMMIGRATION AND NATURALIZATION SERVICE
FROM:
MICHAEL R. BROMWICH
INSPECTOR GENERAL
SUBJECT:
Review of the Immigration and Naturalization Service's
Automated Biometric Identification System,
Report Number I-98-10
We have conducted an assessment of the Immigration and Naturalization Service's (INS)
Automated Biometric Identification System (IDENT). INS historically has had a problem
identifying aliens encountered across the full range of its programs and operations. This
problem has been particularly acute for INS' land border enforcement efforts, and INS has
given a high priority to IDENT deployment at Border Patrol facilities in the Southwest.
INS expects that IDENT and related biometric technologies will also be useful in many
other operations, such as inspections, investigations, detention and deportation, asylum,
and benefits processing. There has been limited progress integrating biometrics in these
areas.
Even in the Border Patrol, where there has been progress, we have concerns about IDENT
implementation, because INS is not yet making consistent and effective use of IDENT as a
tool for border enforcement. There are three critical elements required to make IDENT an
effective border enforcement tool. First, the Border Patrol must enroll all apprehended
aliens in IDENT. Currently, the Border Patrol is enrolling less than two-thirds of
apprehended aliens in IDENT.
Second, INS must enter the fingerprints of all deported aliens and known criminal
aliens into the IDENT lookout database. INS is failing in this regard. INS has entered the
fingerprints of only 41 percent of the aliens deported and excluded in Fiscal Year 1996 in
the IDENT lookout database. We believe this results in previously deported aliens
(including aggravated felons) being released from INS custody when subsequently
apprehended because INS is unaware of their immigration or criminal histories. Even when
the alien's fingerprints are placed in the IDENT lookout database, quick identification of
the alien is made difficult because the photograph of the alien is often missing from the
lookout record. We found that only 24 percent of the fingerprint records in the IDENT
lookout database were accompanied by the aliens' photographs.
Finally, INS needs to coordinate with the United States Attorney for each district
along the Southwest border to establish a border enforcement and prosecution strategy that
takes advantage of IDENT. At the time of our inspection, only the Southern District of
California had made significant progress in using IDENT systematically to identify and
focus prosecutorial resources on the worst offenders including drug and alien smugglers,
and aggravated felons. Other districts along the border need to evaluate the experience in
the Southern District of California, and determine how they can best use IDENT as part of
their border enforcement and prosecution strategy.
INS' efforts to take full advantage of the IDENT technology have also been hampered by
the slow pace of development of the Enforcement Case Tracking System (ENFORCE) and
Computer-Linked Application Management Information System (CLAIMS). IDENT was (and still
is) intended to provide only the fingerprint matching and photographing functions for
ENFORCE and CLAIMS. When the development schedule for these systems was delayed, INS
management deployed IDENT without much of the functionality, reporting and analytical
capabilities that will eventually be included in ENFORCE and CLAIMS to support field
operations. While this decision had the effect of placing IDENT in the field more rapidly,
the full benefits of IDENT will not be realized until it is integrated with other INS
systems.
We also found there were virtually no controls in place to ensure the quality of data
entered into the IDENT lookout database. As a result, we found duplicate records and
invalid data. We are concerned that IDENT can generate more than one Fingerprint
Identification Number (FIN) record for the same individual, which is contrary to the
central premise of the system. Contributing to IDENT data quality problems has been a lack
of IDENT training. INS has provided relatively little training on the current version of
IDENT. We estimate that fewer than 6 percent of the Border Patrol agents along the
Southwest border were trained to use the current version of IDENT--a version markedly
different from the previous version.
We sent copies of the draft report to your office on January 16, 1998, and requested
written comments on the findings and recommendations. Your March 6, 1998, response
addressed each of the eight recommendations. We have attached your response as Appendix
III.
Our analysis of your response describes the additional actions needed for each of the
recommendations and can be found in Appendix IV. Please provide the additional information
requested by July 15, 1998.
You and your staff have taken some important initial steps toward implementing an IDENT
system that can be used to improve the effectiveness of INS law enforcement and benefits
servicing operations. We appreciate the cooperation that managers and staff throughout the
INS afforded us as we carried out our review. If you have any suggestions how we might
improve our review process, or if we can provide you with additional information, please
let us know.
Attachment
cc:     Kathleen Stanley
Liaison
Immigration and Naturalization Service
Vickie L. Sloan
Director
Audit Liaison Office
Review of INS' Automated Biometric Identification System (IDENT)
INTRODUCTION
Each year, the Immigration and Naturalization Service (INS) encounters millions of
individuals, including immigration law violators, immigration benefit applicants, and
almost a half billion travelers and temporary visitors to the United States.
Border Patrol agents and inspectors at ports of entry have historically had to rely
upon the name verbally given by individuals or listed on identification documents to
identify individuals they encounter. Such name-based identification has inherent problems.
Along the Southwest border, apprehended aliens usually do not carry identification and
often provide false names. Consequently, existing records relating to these individuals
cannot be located. INS' solution is to use biometrics, which are individually-unique
biological measurements such as fingerprints, hand geometry, facial recognition, retinal
patterns or other characteristics. Fingerprints are the most commonly used biometric.
The INS is in the first phase of an ambitious plan to use fingerprints and other
biometrics to enhance its law enforcement and benefits processing operations. Most INS
programs and operations, including the Border Patrol, Investigations, Detention and
Deportation, Intelligence, Inspections, the Law Enforcement Support Center, the Forensic
Document Lab, Benefits Adjudication, and the INS Service Centers, have been seen by INS as
the beneficiaries of this system. INS expects that fingerprint technology will assist each
of these operations in quickly identifying individuals and obtaining information about
them from previous encounters with government officials, including any criminal history.
In developing the program, INS anticipated that use of the system would result in:
· increased criminal alien and lookout apprehensions;
· improved detection of prior and repeat offenders;
· increased officer safety;
· faster arrest booking;
· more accurate intake and release of detainees;
· improved use of detention facilities for housing criminal aliens;
· detection of probable alien smugglers;
· analysis of the flow of aliens across the border;
· more thorough and expedited secondary inspections;
· accurate and timely identification support for state and local law enforcement
agencies;
· reduced fraud, including application fraud;
· accurate and timely records locating;
· faster and less expensive service to INS customers; and
· decreased rejection of fingerprint cards by the FBI.
The IDENT System Project Plan signed by Commissioner Meissner on March 27, 1996,
anticipated the use of both single-print and 10-print fingerprint technology to meet the
many diverse requirements of INS programs and operations. Single-print IDENT workstations
are now being used extensively to perform quick lookout checks along the Southwest border
at Border Patrol locations and key ports-of-entry.1 INS has made
much more limited progress in defining system requirements and field testing prototype
versions of software to meet the operational needs of INS operations outside of the Border
Patrol. Limited progress has been made in integrating 10-print fingerprint technology into
the numerous INS programs that can use it to meet identity and full records check
requirements.
Our primary objective for this inspection was to review INS' implementation of
single-print IDENT workstations to perform quick lookout checks and identify criminal
aliens and recidivist illegal border crossers along the Southwest border. We also reviewed
INS' use of 10-print fingerprint cards to enter alien records in the IDENT lookout
database.2
IDENT workstations consist of a personal computer, camera and single-fingerprint
scanner. The enrollment process consists of capturing the alien's two fingerprints (left
and right index fingers), taking the alien's photograph and entering basic apprehension
information. When this information is saved, IDENT matches the fingerprints of the
individual against the corresponding fingerprints of aliens in two central IDENT
databases.3
The recidivist database contains information on over 900,000 illegal border crossers
who have been apprehended and enrolled in IDENT. The IDENT lookout database contains
information on deported and criminal aliens. Alien fingerprints are entered in the lookout
database at a central location in Washington, DC, from 10-printcards sent by INS offices
around the country. Ten-print cards are generally prepared whenever INS personnel process
aliens for deportation or prosecution. Index fingerprints, photographs and basic text
information are scanned and retyped from the 10-print cards to create individual lookout
records in the database.
At locations we visited, IDENT was successfully completing the search of both the
lookout and recidivist databases in under two minutes as required in the IDENT project
plan. The system generates numerical match scores for each alien's fingerprints when
similar prints are found in either of the two IDENT databases. These match scores reflect
how closely the alien's fingerprints match those identified by the system. When the match
is sufficiently close, as reflected by a high numerical match score, INS agents should
then visually compare the photograph, if available, and fingerprints of the apprehended
alien with those of individuals previously entered in either of the IDENT databases. Upon
visual confirmation that there is a match, agents should be confirming the match and
entering that confirmation in IDENT. If there is not a match against the lookout database,
the agent completes the enrollment process and the alien's record is automatically stored
in the recidivist database.
Through FY 1997, INS focused IDENT deployment solely on the Southwest border to support
the Border Patrol's attempts to maintain high visibility on the border. This high
visibility strategy started in 1993 with Operation Hold the Line in El Paso, Texas, and in
1994 with Operation Gatekeeper in San Diego, California. INS' decision to focus its
personnel, equipment and contractor resources on deploying IDENT along the Southwest
border has resulted in IDENT not being integrated into other INS operations.
In addition, IDENT was originally, and is still, intended as a module, or subsystem, in
automated INS systems that are currently under development. IDENT was not intended to
operate as the separate, independent system that INS has implemented. It was expected to
provide only the fingerprint-matching and photographing component of the Enforcement Case
Tracking System (ENFORCE), and the Computer-Linked Application Information Management
System (CLAIMS). INS still expects that all text information for each apprehension and
benefits application will be maintained in the ENFORCE and CLAIMS databases.
Once integrated with ENFORCE and CLAIMS, INS expects that biometrics will support every
aspect of its work. ENFORCE is intended to automate many enforcement processes associated
with the identification, apprehension, detention and deportation of illegal aliens. INS
expects that in the future the use of ENFORCE should facilitate the analysis of IDENT data
in support of INS law enforcement functions (e.g., to gather intelligence and more
effectively deploy resources). The CLAIMS system is intended to support INS' adjudication
activities and track immigration benefit cases. Use of IDENT, in the future, could make it
possible to search a national INS database for all aliens when they are: required to
undergo a secondary inspection; investigated, detained or deported by INS; or are
applicants for asylum, citizenship or other immigration benefits.
INS has spent approximately $30 million on IDENT development and initial deployment
through the end of FY 1997. INS has requested almost $22 million for IDENT in FY 1998, and
estimates that an additional $75 million will be required to complete nationwide IDENT
implementation. More than 80 percent of funds spent to date were allocated from the
Violent Crime Reduction Trust Fund,4 with the balance coming
from user and examinations fees and the INS salaries and expenses appropriation.
INS HAS NOT YET MADE EFFECTIVE USE OF IDENT AS A TOOL FOR BORDER
ENFORCEMENT
The use of IDENT by the Border Patrol, and by INS Inspections at a few key ports of
entry, has demonstrated the feasibility of using fingerprints to identify aliens. However,
INS needs to do more if it is to use this technology effectively, even within the Border
Patrol. There are three steps that are critical to using IDENT effectively as a tool for
border enforcement. First, the Border Patrol must enroll all apprehended aliens in IDENT.
Second, INS must enter the fingerprints of all criminal and deported aliens into the IDENT
lookout database. Finally, INS needs to coordinate with the United States Attorney for
each district along the Southwest border to establish a border enforcement and prosecution
strategy.
INS has not yet accomplished these three steps. In July 1997, approximately 47 percent
of the aliens apprehended by the Border Patrol along the Southwest border were not
enrolled in IDENT (see chart on following page). We also found that INS failed to enter 59
percent of the aliens deported and excluded in FY 1996 into the IDENT lookout database. We
believe INS' failure to search all apprehended aliens' fingerprints against the IDENT
databases, and to enter many criminal and deported aliens into the lookout database, has
resulted in criminal and deported aliens being released (usually returned voluntarily to
Mexico) when subsequently apprehended because INS failed to identify them as having
criminal or immigration histories.
Only in San Diego, where Border Patrol agents, inspectors, and United States Attorney's
Office (USAO) staff have been using IDENT longer than anywhere else, is INS beginning to
use IDENT effectively as part of an overall border control and prosecution strategy. The
United States Attorney for the Southern District of California reports that previously
deported and criminal aliens, along with repeat illegal border crossers, are now
successfully prosecuted as felons and he has given a high priority to prosecuting aliens
identified as drug and alien smugglers. We analyzed IDENT apprehension data along with
prosecution data from the Southern District of California. The analysis generally supports
the conclusion that IDENT is helping to identify, deport, and prosecute the worst
offenders, including aggravated felons, and drug and alien smugglers.
Border Patrol Is Not Consistently Enrolling Aliens in
IDENT
INS recognizes that IDENT is an important enforcement tool. The report FY 1997 INS
Priorities establishes goals for the increased use of IDENT. For the first quarter,
INS hoped to enroll 40 percent of all apprehended aliens on the Southwest border in IDENT.
INS hoped to reach 55 percent and 70 percent for the second and third quarters,
respectively. By the end of FY 1997, INS' goal was to enroll at least 85 percent of all
apprehended aliens along the Southwest border in IDENT.
Our analysis of INS' data indicates that IDENT enrollments as a percentage of aliens
apprehended along the Southwest border have risen since January 1997. As reflected in the
chart below, the proportion of aliens enrolled in the nine Border Patrol sectors along the
Southwest border has still fallen short of INS' goals.
IDENT Enrollments Along the Southwest Border
Source: INS Statistics Division
IDENT enrollment rates have varied among the nine Southwest Border Patrol sectors. Only
the San Diego Sector has consistently enrolled about 90 percent of its apprehensions in
IDENT. Enrollment rates for most other sectors are far lower. The failure to enroll all
apprehended aliens in IDENT greatly diminishes the usefulness of the system in identifying
individuals who are repeatedly caught attempting to illegally cross the border. IDENT
enrollment information for each of the nine Southwest border Sectors can be found in
Appendix II.
INS Is Not Placing Most Deported Aliens in the IDENT
Lookout Database
From a law enforcement perspective, an important feature of the IDENT system is that it
can quickly identify aliens who are criminals or have been previously deported. However,
our analysis of the IDENT lookout database revealed that INS is not entering all deported
and excluded aliens in that database. As a result, Border Patrol agents are not able to
identify these individuals when subsequently apprehended and are likely failing to detain
many criminal aliens.
To assess whether INS was placing these individuals in the IDENT lookout database, we
identified all aliens deported and excluded in FY 1996 from INS' Deportable Alien Control
System (DACS), and compared their alien numbers with those in the IDENT lookout database.
We found that only 41 percent of aliens listed in DACS as deported or excluded in FY 1996
were in the lookout database. We found that some field offices were submitting fingerprint
cards for over 90 percent of their deportations and exclusions, while others were sending
none.5 Under current procedures, alien fingerprints cannot be
entered into the lookout database unless INS field offices send fingerprint cards to
headquarters for data entry.
We also found substantial variation among INS' three regions. Only 11.5 percent of the
deportations and exclusions from the Eastern Region were in the IDENT lookout database and
the Central Region fared only slightly better with 13.6 percent. The Western Region was
the best of the three, but still submitted only 45.3 percent of deportations and
exclusions for entry into the IDENT lookout database.
Not surprisingly, along the Southwest border, we found a strong relationship between
the number of lookout records created in a geographic area, and the number of aliens that
the Border Patrol subsequently matched against the lookout database.
· 63 percent of the records in the IDENT lookout database were entered from INS
locations in California; 70 percent of the IDENT lookout matches occurred in the San Diego
and El Centro Border Patrol Sectors.
· 11 percent of the lookout records originated in Arizona; 18 percent of the IDENT
lookout matches occurred in Yuma and Tucson Border Patrol Sectors.
· 9 percent of the lookout records originated in Texas; 7 percent of the IDENT lookout
matches occurred in the five Border Patrol Sectors in Texas.
A first step toward improving this situation would be for INS to enforce its
fingerprint policy. The INS policy mandates that all Form FD-249 10-print fingerprint
cards for certain individuals be submitted to the Fingerprint Storage Facility.6 An INS contractor is currently responsible for entering alien
fingerprints, photographs and text information into the lookout database. Unfortunately,
many INS field offices are not submitting these cards for storage. INS personnel in some
locations we visited told us that they did not know about this requirement, and we found
no evidence that INS has taken steps to enforce its policy. As a result, INS cannot
identify all criminal and deported aliens when subsequently apprehended because so many of
them are not in the IDENT lookout database.
Even where lookout records exist, identifying these aliens is made more difficult
because only about 24 percent of all records in the lookout database contain photographs
that can be used to confirm lookout matches. The current process of using 10-print
fingerprint cards as the input document for entries into the IDENT lookout database does
not require that photographs be included with each card. INS should make appropriate
changes in the way these lookout records are created to ensure that all lookout records
for criminal and deported aliens contain photographs.
INS has also failed to clearly define criteria for placing individuals in the IDENT
lookout database. Currently, INS policy is to submit fingerprints for all aliens referred
for prosecution, deported or excluded. However, the policy lacks specific details. It does
not clearly establish criteria for exactly when an alien is placed in the lookout, and by
whom. For example, should aliens be placed in the lookout when charged? When processed for
deportation or prosecution regardless of the disposition of that action? When a detainer
is placed? When an alien caught smuggling drugs is turned over to the Drug Enforcement
Administration? And who should be responsible for submitting fingerprints for entry into
the lookout database in each of these instances? INS policy has not yet been established
to address these important questions.
We are also concerned that fingerprints and photographs of aliens received by the
Fingerprint Storage Facility are entered into the database without the controls needed to
ensure that lookout records are created for only those individuals that meet the lookout
criteria. Fingerprint Storage Facility staff responsible currently make no assessment of
whether the alien for whom they receive a card should be entered into the database.
We, therefore, believe that INS needs to establish a clear, specific fingerprint policy
that addresses the questions of who gets entered, when, by whom, and also establishes
appropriate controls over the process.
United States Attorneys Need to Develop
Strategies For Using IDENT
The United States Attorney for the Southern District of California and INS have
established a coordinated strategy for prosecuting individuals who commit border crimes.
The United States Attorney has made it a priority to prosecute illegal aliens who are
aggravated felons, and drug and alien smugglers, and is using Title 8, United States Code,
Section 1326, Reentry of Deported Alien, to do so. IDENT is the cornerstone of this
strategy because it allows INS agents to identify individuals who have a criminal history
or have been previously deported.
The value of IDENT as part of this prosecution strategy is not that it facilitates more
prosecutions. Regardless of IDENT, the number of prosecutions of illegal aliens will be
constrained by factors such as detention and jail space, and prosecutorial resources.
IDENT, however, enables INS and the United States Attorney to focus their deportation and
prosecution efforts on the most egregious offenders.
In the past, misdemeanor prosecutions under Title 8, United States Code, Section 1325,
Improper Entry by Alien, outnumbered felony prosecutions in the Southern District of
California by a 5 to 1 ratio. The USAO for the Southern District of California stated that
even though they had prosecuted up to 5,000 aliens a year for these misdemeanor
violations, these prosecutions had little impact on illegal immigration.
With the advent of IDENT, the United States Attorney developed new prosecution
guidelines to target those aliens who commit aggravated felonies or whose criminal history
is substantial. In the past, economic migrants were the majority of aliens prosecuted for
misdemeanor violations. Using this new strategy, the USAO for the Southern District of
California prosecuted 2,631 defendants as felons under Section 1326 in 1995 and 1996, more
than double the cumulative number of such prosecutions in the previous ten years.
Most of these defendants had been previously convicted of drug trafficking offenses.
From the beginning of 1995 through early 1997, the United States Attorney prosecuted over
3,000 aliens under section 1326, with a better than 90 percent conviction rate. Of the
1,334 Section 1326 prosecutions initiated in 1995, only six defendants chose to go trial.
All six were convicted. Aliens convicted under Section 1326 can be sentenced for 2 to 20
years.7 Convicted aliens also face a period of "supervised
release" of at least one year following prison on the condition that they not return
to the United States. Should these aliens again unlawfully enter the country, they face
both a violation of their supervised release plus a new Section 1326 charge.
Another strategy developed by the Border Patrol and the United States Attorney for the
Southern District of California is the Coyote Program, which targets alien smugglers and
guides. This program originated in San Diego, but has not yet been attempted elsewhere.
INS has long suspected that illegal immigration across the Southwest border is often
facilitated by alien smugglers. However, in the past, when Border Patrol agents
apprehended a large group of aliens, they could not easily identify the smuggler among the
smuggled aliens. By analyzing IDENT recidivism data to determine which aliens had been
apprehended repeatedly, each time with new and different groups of aliens, the Border
Patrol identified 1,300 suspected smugglers and guides. Some of these individuals
identified as smugglers had been apprehended over 60 times. These individuals were then
entered into a separate database,8 and several of the most
prolific smugglers have since been apprehended. These aliens were deported, and will be
prosecuted under Section 1326, if apprehended again. The USAO reports having prosecuted
more than 50 individuals through the Coyote Program.
To assess these various strategies, we performed an analysis of IDENT lookout 0matches
to determine what kinds of individuals were being identified through the use of IDENT, and
whether these individuals were subsequently prosecuted. We analyzed a random sample of
aliens identified through IDENT lookout matches, and determined that many of these aliens
had criminal histories, including convictions for drug-related offenses and/or aggravated
felonies. Out of a sample of 371 aliens identified through IDENT lookout matches, 24
percent of the individuals were listed in DACS as aggravated felons (most of whom also had
drug-related convictions), and an additional 9 percent were listed with other drug
convictions but were not aggravated felons. The remainder of aliens identified as matches
against the IDENT lookout database had been previously deported, excluded, or charged by
INS with misdemeanor immigration law violations.
We compared the sample of aliens for whom we had IDENT lookout matches against Section
1326 prosecution data from the Southern District of California for the period of January
1995 through June 1997. We found a total of 46 Section 1326 prosecutions for the 371
aliens in our sample. Convictions were obtained in 37 of the 46 cases, 8 cases are still
pending, and in one case, the charge was reduced to a misdemeanor.9
We estimate that IDENT may have identified as many as 745 aliens who were subsequently
prosecuted by the United States Attorney for the Southern District of California under
Section 1326 for the period of January 1995 through June 1997. This suggests that one in
four Section 1326 prosecutions of an estimated 3,000 Section 1326 prosecutions during a
similar period was made possible through the use of IDENT.10
Outside San Diego, it is less clear that IDENT is contributing to prosecutions.
Officials with whom we spoke from other Southwest border USAOs have not fully integrated
IDENT into a comprehensive strategy for battling illegal immigration, and prosecution
statistics from some of these offices still reflect many more prosecutions under Section
1325 than under Section 1326. Recognizing that each judicial district is unique, we
suggest that INS develop a strategy to coordinate with USAOs as IDENT is deployed, and
encourage them to adopt appropriate strategies for using IDENT.
1 As of the end of FY 1997, INS reported that IDENT terminals were installed at 27 land
ports-of-entry along the Southwest border.
2 INS is currently installing 10-print fingerprint machines
to electronically capture fingerprints and print FD-249 fingerprint cards (the document
necessary to create an entry in the IDENT Lookout database). INS is working on, but has
not yet fully implemented, electronic transmission of ten-print card data to the
Fingerprint Storage Facility, and has yet to develop the software necessary to
automatically enter data from these cards in the IDENT lookout database. The rolled
fingerprints images captured by these machines are of higher quality than the rolled ink
on paper prints commonly in use, and multiple copies of the FD-249s are easily reproduced
without having to reroll the fingerprints.
3 Although IDENT is used to capture two fingerprints, matches
are selected by the system based on how closely one of a subject's fingerprints (either
the right or left index finger) matches corresponding fingerprints in the IDENT databases.
4 The VCRTF was established by the Violent Crime Control and
Law Enforcement Act of 1994. Amounts may be appropriated from the Fund only for purposes
authorized by the Act.
5 We concluded that the low percentage of deportations and
exclusions in the IDENT lookout database was a result of the failure of field offices to
forward fingerprint cards to the Fingerprint Storage Facility (FSF). We took a random
sample of 498 FY 1996 deportations and exclusions from DACS and determined how many of the
fingerprint cards for these removals were sent to the FSF. We found fingerprint cards at
the FSF for 136 of these aliens. One hundred thirty-four of these 136 aliens (98.5
percent) were in the IDENT lookout database.
6 The INS' Servicewide Fingerprint Policy, dated October 9,
1995, requires that 10-print fingerprints cards be submitted for the following
individuals: those arrested by INS and presented for criminal prosecution; aliens
encountered at Ports of Entry (POE) who are identified as mala fide; aliens who are 14
years of age or older against whom deportation proceedings are commenced or who are
excluded from admission to the U.S.; certain nationality nonimmigrants applying for
admission at Ports Of Entry; aliens applying for admission at POEs without proper
documentation or in possession of fraudulent documentation; aliens being deported from the
U.S.; and aliens for whom fingerprints are required under special projects pursuant to 8
CFR 264.1(f).
7 Aliens sentenced under Section 1326 can be imprisoned for
up to two years; those previously convicted as aggravated felons can be imprisoned for up
to 20 years.
8 Suspected alien smugglers identified through analysis of
IDENT data were not entered into the IDENT lookout database because these individuals had
not previously been deported. Instead, the Fingerprint Identification Numbers of these
aliens were entered into a separate San Diego Sector database.
9 Most of the convicted aliens in our sample were sentenced
for 24 months.
10 A small number of aliens identified using IDENT may also
have been prosecuted under other nonimmigration criminal statutes. We did not conduct the
analysis required to determine the number of such additional prosecutions. We do know,
however, that Section 1326 convictions are the preferred approach for prosecuting illegal
aliens in Southern California because they require far less time and fewer resources to
prosecute.
#####